HHS/OIG-Audit--"Review of Medicare Part B Reimbursement of Hospital Beds, (A-06-91-00080)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part B Reimbursement of Hospital Beds," (A-06-91-00080)
May 14, 1993
Complete
Text of Report is available in PDF format (2.89 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Health Care Financing Administration
(HCFA) needs to explore a new reimbursement methodology for hospital beds used
in the home. Such a methodology should consider a hospital bed's useful life and
the many times a bed can customarily be rented. The HCFA should consider options
that would; (1) lower the monthly rental payments, but extend the rental reimbursement
period and eliminate the purchase option, (2) separate the equipment costs from
other costs and profit in determining the monthly Medicare rental payment, or (3)
use a competitive bidding process in paying suppliers for hospital bed usage.